IS,

1

s

"l

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ALLEN SNYDER — PETITIONER
vs.
DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, Allen Snyder, do swear or declare that on this date, October 21, 2020,
as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by
depositing and envelope containing the above documents in the United
States mail properly addressed to each of them, and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
Jefferson Parish District Attorney’s Office
Attention; AD A Anne M. Wallis
200 Derbigny 5th Floor
Gretna LA 70053
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 21, 2020

